No. 20-482
IN THE

Supreme Court of the United States
HERBERT H. SLATTERY III, ET AL.,
Petitioners,
v.
ADAMS & BOYLE, P.C., ET AL.,
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

CERTIFICATE OF SERVICE
I, Paul R.Q. Wolfson, a member of the bar of this Court, hereby certify that, on
this 14th day of December, 2020, all parties required to be served have been served
copies of the Brief in Opposition in this matter by overnight courier to the addresses
below.
SARAH KEETON CAMPBELL
TENNESSEE OFFICE OF ATTORNEY GENERAL
War Memorial Building
301 6th Avenue North
Nashville, TN 37243
(615) 532-6026
Sarah.Campbell@ag.tn.gov

PAUL R.Q. WOLFSON
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Ave., NW
Washington, DC 20006
(202) 663-6000
paul.wolfson@wilmerhale.com

